U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 22, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Anderson Alexander v. United States, No. 20-5537
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 26,
2020. The government’s response is now due, after one extension, on October 30, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 30, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5537
ALEXANDER, ANDERSON
USA

MICHAEL L. SCOTT
ASSISTANT FEDERAL PUBLIC DEFENDER
NORTH/SOUTH. DIST.OF MISS.
200 SOUTH LAMAR STREET
SUITE 200-N
JACKSON, MS 39201
601-948-4284
MIKE_SCOTT@FD.ORG

